U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Mitchell J. Stein v. United States of America, No. 20-326

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 8,
2020, and placed on the docket on September 11, 2020. The government’s response is now due,
after one extension, on November 12, 2020. We respectfully request, under Rule 30.4 of the
Rules of this Court, a further extension of time to and including November 13, 2020, within
which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0326
STEIN, MITCHELL J.
USA

JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 SAND HILL ROAD
MENLO PARK, CA 94025
650-473-2633
JLFISHER@OMM.COM
MARK W. MOSIER
COVINGTON & BURLING, LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-5435
MMOSIER@COV.COM
TIMOTHY P. O'TOOLE
MILLER & CHEVALIER
900 16TH STREET NW
WASHINGTON, DC 20006
202-626-5855
TOTOOLE@MILCHEV.COM

